<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                    

                         [H.A.S.C. No. 115-101]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

               SUBCOMMITTEE ON MILITARY PERSONNEL HEARING

                                   ON

                      MILITARY PERSONNEL POSTURE:

                            FISCAL YEAR 2019

                               __________

                              HEARING HELD
                             APRIL 13, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-682                     WASHINGTON : 2019                     
          
------------------------------------------------------------------------------- 


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    MIKE COFFMAN, Colorado, Chairman

WALTER B. JONES, North Carolina      JACKIE SPEIER, California
BRAD R. WENSTRUP, Ohio, Vice Chair   ROBERT A. BRADY, Pennsylvania
STEVE RUSSELL, Oklahoma              NIKI TSONGAS, Massachusetts
DON BACON, Nebraska                  RUBEN GALLEGO, Arizona
MARTHA McSALLY, Arizona              CAROL SHEA-PORTER, New Hampshire
RALPH LEE ABRAHAM, Louisiana         JACKY ROSEN, Nevada
TRENT KELLY, Mississippi
               Dave Giachetti, Professional Staff Member
                Craig Greene, Professional Staff Member
                         Danielle Steitz, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Coffman, Hon. Mike, a Representative from Colorado, Chairman, 
  Subcommittee on Military Personnel.............................     1
Speier, Hon. Jackie, a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2

                               WITNESSES

Burke, VADM Robert P., USN, Chief of Naval Personnel, United 
  States Navy....................................................     4
Grosso, Lt Gen Gina M., USAF, Deputy Chief of Staff for Manpower, 
  Personnel and Services, United States Air Force................     5
Rocco, LtGen Michael A., USMC, Deputy Commandant for Manpower and 
  Reserve Affairs, United States Marine Corps....................     7
Seamands, LTG Thomas C., USA, Deputy Chief of Staff, G-1, United 
  States Army....................................................     2

                                APPENDIX

Prepared Statements: <dagger>

    Burke, VADM Robert P.........................................    43
    Grosso, Lt Gen Gina M........................................    56
    Rocco, LtGen Michael A.......................................    71
    Seamands, LTG Thomas C.......................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Rosen....................................................    89
      



    <dagger> This hearing was originally scheduled to be held on March 
21, 2018, but was postponed. Witness prepared statements are all dated 
March 21, 2018.
              MILITARY PERSONNEL POSTURE: FISCAL YEAR 2019

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                            Washington, DC, Friday, April 13, 2018.
    The subcommittee met, pursuant to call, at 9:02 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Coffman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE COFFMAN, A REPRESENTATIVE FROM 
     COLORADO, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Coffman. This hearing is called to order.
    I want to welcome everyone to the Military Personnel 
Subcommittee's hearing on the current and future state of the 
military personnel enterprise as we continue to build the 
fiscal year 2019 NDAA, National Defense Authorization Act.
    Our panel of the service personnel chiefs is here to 
address each of the services' personnel requirements, including 
personnel policies for recruiting and retention, family 
programs, and to address other budget and legislative requests 
for fiscal year 2019.
    Today's focus is on the request for manpower increases from 
the armed services and the requirements that went into building 
the specific increases, as well as how the personnel policies 
currently in place will support and sustain these increases.
    With the difficult recruiting and retention environment, 
driven by a lessened overall propensity to serve, reduced pool 
of qualified candidates, and a robust economy, the competition 
for recruits will be difficult and you all will be competing 
for the same pool.
    As you reference in your written testimony, General 
Seamands, today, only one in four 17- to 24-year-olds in the 
United States is eligible to serve in the Army, and only one in 
eight has the propensity to enlist in the military, making Army 
accessions a challenging and resource-intensive activity.
    The subcommittee also remains concerned about the ability 
of all the services to maintain their high quality standards 
and still meet their recruiting goals.
    Also, I am especially interested in your plans for 
retention of the right service members that are central to your 
mission and, specifically, what additional steps the Air Force 
is taking to fully address their pilot crisis.
    Before I introduce our panel, let me offer Congresswoman 
Speier an opportunity to make any opening remarks.

    STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Mr. Chairman, thank you. Actually, my comments 
mirror yours.
    The National Defense Strategy led Congress to assume there 
will be growth in end strength for most of the services. The 
fiscal year 2019 request does seek increases not just for next 
year but also requests an end state for fiscal year 2023 of 
more than 10,000 from the current authorization levels for the 
Army, Navy, and Air Force.
    For the past 2 years, Congress has written a blank check 
for the Army, providing end-strength increases not requested as 
part of the budget. We cannot continue this behavior. Whether 
we agree that the services need an increase or not, it is 
important for Congress to understand what the long-term plans 
are so we can have informed debate and make educated decisions 
about our military.
    I would like to understand how the services would sustain 
this growth pattern over the next 5 years in an era where 
finding quality applicants is becoming more and more difficult. 
Congress also must understand how increased end strength will 
apply to the force, fill current gaps, and increase units and 
capabilities.
    I yield back.
    Mr. Coffman. We will give each witness the opportunity to 
present his or her testimony and each member an opportunity to 
question the witnesses for 5 minutes.
    We would also respectfully remind the witnesses to 
summarize, to the greatest extent possible, the high points of 
your written testimony in 5 minutes or less. Your written 
comments and statements will be made part of the hearing 
record.
    Let me welcome our panel: Lieutenant General Thomas 
Seamands, Deputy Chief of Staff, G-1 [Personnel], United States 
Army; Vice Admiral Robert P. Burke, Chief of Naval Personnel; 
Lieutenant General Gina M. Grosso, Deputy Chief of Staff for 
Manpower, Personnel, and Services, United States Air Force; 
Lieutenant General Michael A. Rocco, Deputy Commandant for 
Manpower and Reserve Affairs, United States Marine Corps.
    General Seamands, you are now recognized for 5 minutes.

   STATEMENT OF LTG THOMAS C. SEAMANDS, USA, DEPUTY CHIEF OF 
                 STAFF, G-1, UNITED STATES ARMY

    General Seamands. Chairman Coffman, Ranking Member Speier, 
distinguished members of the committee, I thank you for the 
opportunity today to appear before you on behalf of the men and 
women of the United States Army.
    I have submitted a statement for the record. I now would 
like to highlight a few of the points.
    Manning our Army is one of the key components to readiness 
and vital to the Army's ability to fight and win our Nation's 
wars. Thank you for the fiscal year 2018 National Defense 
Authorization Act, which authorized the Army to grow by 8,500. 
We also appreciate the 2-year budget deal, which will improve 
readiness and ensure our formations are filled in the years to 
come.
    To build the future Army, we must recruit diverse men and 
women of high quality and high character in a competitive 
market, as the chairman talked about, where only one in four 
17- to 24-year-olds is eligible to join the Army and one in 
eight has a propensity to enlist in the military.
    While the Army projects recruiting challenges in all 
components, maintaining the quality will continue to be our 
priority and the Army will not sacrifice quality for quantity. 
Our recruiters across the country are doing incredible work to 
achieve this mission.
    The Army must also continue to retain the most talented 
soldiers and noncommissioned officers [NCOs] with the 
experience and skills necessary to meet our future needs. We 
project historic retention rates again this year for our NCOs.
    The Army leadership embraces talent management as a 
cornerstone for how we will retain our best officers and NCOs. 
The Integrated Pay and Personnel System-Army, IPPS-A, will be 
the keystone in the archway of our talent management. IPPS-A 
will be a responsive system connecting all three components and 
build a marketplace for talent.
    We are a standards-based team in the Army, and the Army 
remains committed to giving all solders who can meet the 
standards of a military occupational specialty the opportunity 
to serve in that specialty. Last year, the Army implemented 
gender-neutral physical standards for initial-entry training 
for specific jobs. The initial results are positive. We have 
successfully accessed and transferred almost 700 women into 
previously closed occupations of infantry, armor, and 
artillery. The opportunities are so popular, we plan on 
expanding the program this year.
    As part of the total force, our Army civilians are vital 
and comprise about 22 percent of our total personnel. We need a 
civilian workforce with unique, critical skills to support our 
soldiers and support our families.
    As we build our force, we focus on the areas that provide 
the foundation for our future. We remain focused on personal 
resiliency, suicide prevention, with world-class programs for 
soldiers, civilians, and families. And we are aggressively 
working to decrease the stigma associated with seeking 
behavioral health help.
    Sexual harassment, sexual assault, and retaliation are not 
compatible with Army values, and they diminish our readiness. 
Therefore, combating all forms of sexual misconduct remains a 
top priority for the Army. Although we are optimistic about the 
progress we have made in reducing sexual violence in the ranks, 
we understand there is a lot more work to do as we drive toward 
zero.
    You have authorized us to grow, and we are thankful for 
that. We must ensure we are ready. The Army has improved 
personnel readiness by increasing the number of deployable 
soldiers, and we have an ongoing review to increase the number 
of deployable soldiers even more in order to enhance readiness.
    As you are aware, the Department of Defense has issued a 
new retention policy for nondeployable service members in 
February. The Army is working with OSD [Office of the Secretary 
of Defense] on the implementation of these changes. The Army 
will make continued reductions in our nondeployable population 
a priority.
    Because we care for our soldiers as they prepare for life 
after the service, the Army's Soldier for Life program, with 
support from commanders and command sergeant majors, has 
resulted in increased educational and employment opportunities 
for our soldiers, our veterans, and our family members at a 
significant reduction of unemployment cost.
    Additionally, I look forward to beginning the discussion of 
review of DOPMA [Defense Officer Personnel Management Act] to 
determine what is essential and what needs to be updated.
    Our Army is strong because of the courage and commitment of 
our soldiers, civilians, veterans, and family members who serve 
our Nation. I thank all of you for your continued support to 
the All-Volunteer Army.
    [The prepared statement of General Seamands can be found in 
the Appendix on page 29.]
    Mr. Coffman. Vice Admiral Burke, you are now recognized for 
5 minutes.

    STATEMENT OF VADM ROBERT P. BURKE, USN, CHIEF OF NAVAL 
                 PERSONNEL, UNITED STATES NAVY

    Admiral Burke. Thank you.
    Good morning, Chairman Coffman, Ranking Member Speier, and 
distinguished members of the subcommittee. Thank you for the 
opportunity to represent the men and women in the United States 
Navy. Your stalwart support for them and their families 
continues to have a profound impact upon the health of our 
force today.
    Global demands upon the Navy continue to grow. We must 
continue to recruit, develop, and retain the highly skilled 
workforce needed to meet the growing demand signal for naval 
forces. Our force structure will grow as we build the Navy the 
Nation needs, which will require increasing end strength.
    As we grow, our need for highly talented people increases. 
At the same time, propensity to serve is declining, and each of 
the services, as well as the civilian sector, are vying for the 
same limited talent pool. We are clearly in a war for talent. 
Current forecasts, based on leading economic indicators, 
suggest difficult times ahead. Labor market factors may pull 
sailors with critical skills into the growing civilian job 
market.
    We took note of these indicators and initiated preemptive 
action to retain these sailors, using all available policy 
levers to posture ourselves to meet this anticipated growth. 
Despite this, we just made our fiscal year 2017 end-strength 
targets. This year's trajectory is good, but we will require 
steady and reliable funding going forward to stay on track. The 
new 2-year budget deal is great news for us and is an excellent 
step in that direction.
    While recruiters had challenges last year, an increasing 
fiscal year 2018 recruiting mission will be even more difficult 
for them. Certain fields are in short supply. And our projected 
growth profile requires a balanced approach of accession 
increases as well as retention improvement. And while our 
overall, aggregate retention remains high, the nuclear field, 
special warfare, advanced electronics, aviation, and cyber 
areas demand close attention.
    Targeted bonuses continue to be the most cost-effective 
monetary tool in addressing those retention challenges, but we 
are aggressively applying a combination of monetary and non-
monetary incentives, with good effect.
    Toward that end, we continue to implement and expand our 
Sailor 2025 portfolio, which is a dynamic set of over 45 
initiatives that work to provide our sailors and their families 
the choices, the flexibility, and transparency of processes 
that they expect and deserve.
    And we have combined that with our manpower, personnel, 
training, and education enterprise transformation efforts. 
Through those efforts, we will provide these programs to our 
sailors, with a renewed focus on customer service through 
streamlined efficient business processes and modern systems.
    We will also better meet the needs of our fleet commanders 
through agility, responsiveness, and the use of predictive 
analytics so that we can be the pillar of stability in an 
uncertain world. So we are moving out now with purpose and a 
committed sense of urgency on all of these initiatives.
    We also remain actively engaged in the Department's review 
of officer management policies and are grateful for the 
subcommittee's interest to examine DOPMA to ensure it meets the 
future needs of each of the services.
    I look forward to your questions, and thank you.
    [The prepared statement of Admiral Burke can be found in 
the Appendix on page 43.]
    Mr. Coffman. Thank you, Vice Admiral Burke.
    Lieutenant General Grosso, you are now recognized for 5 
minutes.

STATEMENT OF LT GEN GINA M. GROSSO, USAF, DEPUTY CHIEF OF STAFF 
 FOR MANPOWER, PERSONNEL AND SERVICES, UNITED STATES AIR FORCE

    General Grosso. Chairman Coffman, Ranking Member Speier, 
and distinguished members of the subcommittee, thank you for 
the opportunity to appear before you to deliver the Air Force's 
personnel posture for fiscal year 2019.
    The Air Force's number one priority to accelerate readiness 
is increasing end strength. We appreciate the fiscal year 2018 
National Defense Authorization Act support for continued end-
strength growth. The growth allows the Air Force to compete, 
deter, and win in a more competitive and dangerous 
international security environment.
    The Air Force's fiscal year 2019 President's budget 
continues that growth, to 680,400 total force airmen, a 4,700 
increase from fiscal year 2018. This growth is part of our 
deliberate strategy to improve manning in the Air Force and 
includes increases in pilot production; remotely piloted 
aircraft, operations, and maintenance; and continues our 
manpower investment for cyber and intelligence.
    Additionally, the growth provides the inventory the Air 
Force needs to rightsize our training pipeline, improve 
squadron readiness, and gives us a competitive advantage for 
airspace and cyberspace superiority.
    As you are aware, our most stressed operational career 
field is aviation. As of October 2017, our total force pilot 
shortage was approximately 2,000, with the largest shortage, 
1,300, in our fighter pilot inventory. The fiscal year 2019 
President's budget continues to address the pilot shortage by 
funding increased pilot production capacity. In addition, this 
budget funds myriad programs and policies designed to address 
assignment, operational tempo, and quality-of-life issues, 
targeted to improve pilot retention.
    The fiscal year 2019 President's budget also increases 
support to airmen and families through a variety of 
capabilities that drive mission readiness. The budget increases 
child and youth funding by $54 million to a total of $114 
million. This funding expands childcare for those airmen 
needing care outside of normal duty hours, provides fees to 
support 4,000 children who only have access to off-base 
childcare, and funds youth resiliency camps.
    The Exceptional Family Member Program assists more than 
33,000 airmen who have special-needs families. This budget adds 
15 installation-level family support coordinators across the 
Air Force and also funds increasing respite care for the 
primary caregiver from 12 to 40 hours per child each month. 
Taking care of airmen and airmen's children and caregivers 
removes worries and distractions to allow airmen to fully focus 
on the mission.
    Interpersonal and self-directed violence are detriments to 
our airmen, our culture, and our core values. These acts 
negatively impact victims, their units, and unit readiness. We 
are deeply committed to the prevention of interpersonal and 
self-directed violence on all fronts by implementing evidence-
based programs, to include bystander intervention and life 
skills training programs and time-based self-directed violence 
prevention programs.
    Should we fall short on our goals to eliminate 
interpersonal and self-directed violence, we are committed to 
providing victims, families, and units the care they need 
across a robust response system.
    Today's threat environment requires agile and inclusive 
military and civilian personnel management systems to ensure 
the Air Force continues to retain the highly skilled talent 
needed to defend our Nation.
    The enlisted force. We are conducting a triennial review of 
the Enlisted Evaluation System following a transition to a new 
system in 2015. Within our officer corps, we are reviewing 
multiple initiatives, to include modifying our current 
promotion-competitive categories and establishing technical 
tracks.
    Our civilian workforce is essential to the Air Force's 
mission and joint warfighting readiness. Recruiting and hiring 
top civilian talent is critical to our success. In fiscal year 
2018, we implemented a Premier College Intern Program. This 
initiative enables the Air Force to recruit top talent directly 
from college campuses via a summer intern program, using direct 
hiring authorities to streamline the process. Our target for 
fiscal year 2019 onboarding is 500 new civilians, and we 
currently have 415 acceptances. This approach ensures we 
leverage the new congressional hiring authorities and stay 
competitive with aggressive private-sector recruiting.
    Finally, the Air Force is modernizing information 
technology infrastructure across our human resource systems to 
provide exceptional personnel service to airmen and their 
families. In a digitally connected world, our airmen deserve 
the best human resource systems available today. We have a 6-
year plan to migrate 115 technology platforms and 400-plus 
applications to the cloud. As we modernize our information 
technology platforms, we will provide more modern systems to 
our airmen and enhance our ability to make data-driven 
decisions.
    In conclusion, we must ensure our airmen have the 
resources, training, and tools to compete, deter, and win in an 
increasingly complex security environment. We are committed to 
prioritizing and resourcing what is most important to make the 
Air Force more ready and lethal. We welcome the opportunity to 
partner with you in our endeavors to protect and defend our 
Nation.
    I thank you for your continued support of your Air Force, 
and I look forward to your questions.
    [The prepared statement of General Grosso can be found in 
the Appendix on page 56.]
    Mr. Coffman. Thank you, Lieutenant General Grosso.
    Lieutenant General Rocco.

 STATEMENT OF LTGEN MICHAEL A. ROCCO, USMC, DEPUTY COMMANDANT 
  FOR MANPOWER AND RESERVE AFFAIRS, UNITED STATES MARINE CORPS

    General Rocco. Chairman Coffman, Ranking Member Speier, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss your Marine 
Corps.
    Marines are the foundation of the Corps and its most 
critical resource. Marines are recruited, trained, educated, 
and retained to win our Nation's battles. They are smart, 
resilient, fit, disciplined, and able to overcome adversity. 
All Marines are warfighters; they are lethal, and they are 
ready.
    Recruiting and retaining high-quality men and women is my 
number one priority. This year, once again, the Marine Corps 
will meet its recruiting mission while at the same time 
exceeding all quality goals. The Department requires 90 percent 
of Marine recruits to be in the top education tier. We are at 
99 percent. It requires 60 percent to be in the highest mental 
aptitude group. We are over 72 percent.
    Just as we recruit the best, so we must retain the best. 
These Marines must be capable of fulfilling our leadership 
roles and operational requirements. There is a continuous 
challenge to keep high-quality Marines, especially in the 
current economy and increasingly competitive civilian job 
market. This is particularly true for cyber and many of the 
high-tech occupations that are critical to the future of 
warfare.
    Incentive pay and bonuses remain vital to our retention 
effort, and we appreciate your continued support for them. We 
are open to new ways to recognize, reward, and retain high-
quality Marines in the Corps. The Commandant's top priority in 
this regard is to increase lineal list flexibility for our 
officer promotions. We believe this is a simple yet effective 
way to recognize excellence.
    We look forward to working with all the services, the 
Department, and members of the subcommittee on other 
initiatives that will enhance personnel quality, readiness, and 
lethality. We remain adaptable and open to new ways to recruit 
and retain the high-tech force we need for the future as we 
build on the foundation of the quality Marines we have today.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of General Rocco can be found in 
the Appendix on page 71.]
    Mr. Coffman. Thank you.
    Let me just begin. I am very concerned--and I would like 
each of you to address this--with the lowering of standards. I 
can remember--I was in the Army and the Marine Corps and in the 
Army at the end of the draft, where, you know, anybody--I guess 
you had to talk your way out of being in the Army. But I think 
that the problems--and there were a lot of disciplinary 
problems, morale problems. But they were actually across the 
board. It wasn't limited to the United States Army at that 
time.
    And when I look at the military today, when I meet these 
young men and women who serve in uniform today, they are 
extraordinary. I mean, we truly have talent. We have an elite 
force. So we have a smaller force than we have historically 
had, but it is an elite force. I would rather have fewer 
numbers and high quality than big numbers and low quality.
    And so I know that there is that great temptation to meet 
numbers, to lower standards. And so I want each of you to 
address that, starting with the United States Army.
    General Seamands. Chairman, thank you for the question.
    I will tell you, the Army leadership has been very clear to 
me and our recruiting command: It is quality over quantity. If 
we can't make the quantity you have allowed us to access this 
year for the end strength, it is my job to come back to you and 
tell you why we can't do it, but we will not sacrifice quality.
    A couple points. Your description of our soldiers as 
extraordinary, that is a really good word to describe who they 
are. They impress me and inspire me each and every day.
    As the Army is growing again, thanks to your work, what we 
did is we went back to look at the last time we grew in 2008. 
And we made some mistakes back in 2008, and we are not making 
those mistakes now. Back in 2008, we were focused more on 
quantity than quality. That is not happening now.
    On a personal level, sir, I entered the Army in the early 
eighties, and we had a lot of problems back in those days. And 
I don't want--I love our Army, and I don't want to go back to 
those days. And I speak, I think, for the leadership and speak 
for the commanders across the force; they don't want to either.
    So we will remain focused on quality and quantity. If we 
have to sacrifice one, it will be the quantity.
    Thank you, sir.
    Admiral Burke. Yes, sir, I would echo what General Seamands 
said for the Army. We are not going to sacrifice quality.
    What we have done, though, is taken a good, hard look at 
self-imposed policies that limit the spectrum of candidates 
that we look at. For example, we are engaging with our medical 
experts to make sure that our medical standards, the Navy's 
side of the medical standards, are up to date with societal 
norms, making sure that we are not negatively impacting fleet 
readiness. For example, someone that may have used medication 
for bronchitis, you know, does that equate to having asthma, 
type of things, that at one point may have been medically 
disqualifying, those sorts of things.
    We have used the full latitude of the title 10 authority 
that you have given us for age limits and opened it up for both 
officer programs, where there are no physical limitations, such 
as, for example, pilots or nuclear programs where there are 
physiological concerns, but everywhere else we have opened them 
up to the full latitude, and enlisted programs as well.
    And then we are looking at single-parent policies as well, 
where you have an older single parent where they have 
demonstrated they can responsibly care for those children and 
could translate that into military service. So we have opened 
up our doors to those sorts of situations as well.
    And then the last part is our recruiting techniques. As we 
are entering our transformation, we have really shifted our 
recruiting techniques to more of a virtual basis. We still rely 
on our recruiters as sort of the boots-on-ground deal-closers, 
but we are getting into new markets, places where we haven't 
been able to get our message through before. So we are getting 
that message through and getting the talent that we couldn't.
    Mr. Coffman. General Grosso.
    General Grosso. Yes, sir. We have not found any real 
challenges in recruiting. We are recruiting the same quality 
that we have been able to recruit, and we have been able to 
meet our recruiting goals across the total force.
    But what we have done, to your point about growing end 
strength, ma'am, is we have laid in the end strength at a 
reasonable pace over the FYDP [Future Years Defense Program] so 
that we don't overtax both the recruiting and the training 
sources that make them airmen.
    And so we have put a little bit of resourcing. We have 
increased the number of recruiters. We have stabilized the 
marketing budget, because what you find in the past is, as we 
have decreased, you see this huge sine wave in the marketing 
budget. And any marketer will tell you, you always have to be 
in the market. So we have stabilized the marketing budget.
    And, much like the Navy, we are modernizing the way we find 
airmen as well, because you find that is a process that hasn't 
really had much of a process improvement. And so how do we find 
airmen that we don't find today using technology, and better 
leveraging all of our resourcing capacity, making it less 
stovepiped.
    Mr. Coffman. General Rocco.
    General Rocco. As I stated in my opening remarks, 99 
percent are Tier 1. The number is actually 99.86 percent Tier 
1, of the recruits. We recruited approximately 31,000 Marines 
into the Marine Corps this year. Out of that, only about 70 
percent of them will serve past their first tour. And that is 
based on the personal requirements and based on the needs of 
the Marine Corps.
    When we talk about first-term enlistments, those first-term 
Marines that will only serve their first term, that want to 
stay on and do a second tour, we are at 92.9 percent of those 
Marines that are coming in that want to stay in the Marine 
Corps. That is where we are at right now for retaining those 
Marines.
    And it is not a first in, first out. We actually have the 
ability to look at those Marines that want to stay in, have 
boards, and only retain the highest quality of those Marines, 
including second-term Marines that--we are at 99.5 percent of 
those Marines that want to stay in, that we retain.
    So we think we are in a good place. MCRC [Marine Corps 
Recruiting Command] has done a lot to go out to the markets and 
expand beyond that, to ensure that we hit markets and folks 
that perhaps we haven't touched in the past.
    Mr. Coffman. Thank you.
    Ranking Member Speier.
    Ms. Speier. Thank you, Mr. Chairman. I am going to defer 
and allow my colleague to ask the first set of questions, Ms. 
Tsongas.
    Ms. Tsongas. Well, I thank the ranking member for deferring 
and thank the chairman and ranking member for holding this 
hearing.
    As you all have noted in your testimony, the volatile 
nature of today's security environment and the complexity of 
threats our country faces do require the military services to 
recruit from a talent pool that is as broad, as talented, and 
as diverse as possible.
    To underscore this point, a study cited by the Defense 
Advisory Committee on Women in the Services, DACOWITS, found 
that only 29 percent of young people ages 18 to 23 are eligible 
to serve after adjustments are made for individuals who are 
disqualified based on standards for medical/physical health, 
weight, mental health, drug usage, conduct, aptitude, and who 
have dependents.
    And, Admiral, you referenced you are looking at some of 
these filters, but nevertheless.
    Of that eligible population, more than half are women. So, 
after you apply all these filters, what you are left with is a 
much smaller group. Over half, just over half are women. 
However, less than 20 percent of today's Active Duty force is 
comprised of women.
    So this study, in my mind, makes clear that, in an era 
where the eligible military recruiting population remains on 
the decline, it is more important now than ever that we recruit 
from the entire population and not overlook the opportunity 
that half of the eligible Nation's talent pool would provide 
the services in order to be the best services in the world.
    So, with that in mind, I would like each of you to comment 
on what your service is doing to recruit and retain women in 
the services.
    And we will start with you, General.
    General Seamands. Thank you, ma'am. I appreciate the 
question.
    A couple things. One, for our recruiting command as well as 
for our source of commissionings for ROTC [Reserve Officers' 
Training Corps] and West Point, we are reaching out to females 
to encourage them to come in. And what we have seen at ROTC as 
well as West Point, it has increased in female applications and 
females being accepted, which will help as they come in the 
Army improve.
    I think part of that is, as we did the gender integration 
and opened up all the specialties, the Army has enjoyed such 
success, where we have an infantry company commander female in 
the 82nd Airborne Division. We have lieutenants. We just had 
our last, most recent two Ranger School graduates last week 
graduate from a very difficult course at Fort Benning.
    I think as we see those role models come out and 
successfully lead--and they are doing wonderful things in our 
formations--I think you will see increased females across the 
formations. We are very excited about what the females are 
doing in the Army, and I think there is no limit to what they 
can do in the future. We are very excited.
    Ms. Tsongas. I thank you for that.
    And as we are moving down the line, can you also include, 
kind of, how you are addressing your messaging so that, as 
young women are watching what they see on TV, wherever, what 
they are doing; and how you are also addressing a culture that 
encourages retention. Because I know, as we have served on this 
subcommittee, we have seen there are issues that are unique to 
women who seek to serve their country but who often find 
barriers to lengthening out their term of service.
    But we will start with you, Admiral.
    Admiral Burke. Yes, ma'am.
    Just in terms of where we are right now, last year's Naval 
Academy graduating class, 27 percent women. Six of the top 10 
graduates were women. Our enlisted accessions for the last 2 
years have been 26 and 27 percent women.
    It is an operational imperative for the Navy to increase 
our numbers of women. So we are, frankly, targeting them in our 
recruiting efforts, in our messaging, because that is where the 
talent is. Fifty-two percent of technical graduates at 
America's colleges are women. That is where the talent is, so 
we are very aggressively going after them.
    Our new ad campaigns prominently feature women. Our most 
recent one has a female submariner earning her dolphins at the 
front of it. The first one that was released at the Army-Navy 
game in December, the first one of our new ad campaign, has a 
female sailor saluting at the end of it. So we are really 
trying to highlight situations that women could see themselves 
as a career in the Navy.
    The retention efforts, things like the Career Intermission 
Program, Navy is the biggest user of that. We highlight that.
    But the other element of this, as part of Sailor 2025, one 
of the pillars of that is career readiness. And one of the 
initiatives under there is to make the Navy a place where you 
can have life-work balance. We want sailors to have a longer 
career, and we want them to be able to achieve life-work 
balance to do things like occasionally put family matters in 
perspective and not have to pay a penalty for your career.
    That applies to men and women. And the Navy has a little 
bit of a problem with occasionally doing that for both men and 
women.
    So we are working hard to do that if we are going to expect 
people to have a longer career. We need them to have longer 
careers so we can bring fewer sailors in the front door and get 
a higher return on investment from those sailors.
    Ms. Tsongas. Admiral, I am out of time, but, General Grosso 
and General Rocco, if you could submit an answer, a written 
answer, I would appreciate it.
    Mr. Coffman. Why don't you go ahead and take another 
minute.
    Ms. Tsongas. Okay.
    Go ahead, then. Let's move down the line here.
    General Grosso. Representative Tsongas, I would say it 
starts with the messaging. And I am going to steal the words 
from our Secretary, but if you ask any person in the population 
who was their first protector and defender, it was their 
mother. And so we have to change the messaging, that there is a 
place for women.
    And I think we also have to have women out--see that women 
can be successful. I feel like it is my personal responsibility 
to go to events so women can see that you can progress and 
there is a place for you.
    I think our recruiting efforts as well as we get rid of 
those stovepipes, as people come to talk to us, there are so 
many opportunities: full-time, part-time, Guard, Reserve, 
civilian even. I went to an event and I had a woman tell me she 
didn't like sweating. I said, 25 percent of our force are 
civilians; would you like to come be a civilian?
    So I think that is the recruiting side.
    On the retention side, RAND just finished a study for us, 
and there are definitely some systemic things we need to do. 
Childcare was a big one of them. And I don't think that is just 
a women's issue, but if families can't take care of their 
children, we are not going to retain them.
    The other thing that was very clear from women is, they--
and this was literally in the study--they want to get off the 
escalator. And so we have to have some way to figure out DOPMA 
reform, whether it is technical tracks so that they can be more 
technical--and they also asked for maybe opportunities to 
cross-train into career fields that may be more suitable to 
having a family.
    So there is some systemic work that we are looking at as 
well.
    Ms. Tsongas. Thank you.
    General Rocco. That is an important question, and thank 
you, Representative Tsongas.
    So the Marine Corps, as you know, we have opened up all 
occupational fields now and are represented throughout the 
Marine Corps. That is one issue.
    Second, from the Marine Corps Recruiting Command, we have 
gone places that we haven't gone in the past. Mail-outs now go 
to both male, female.
    Athletics, coaches--we have opened up programs to basically 
have access, both at the high school level and the collegiate 
level, to athletics, both on the male and female side. We run 
education and coach workshops so the Marine Corps recruiters 
can have access to a population that we in the past have not 
had access to.
    And, of course, our advertising campaign has focused on not 
only diversity but females, and we have been more aggressive in 
displaying a diverse Marine Corps.
    Thank you.
    Ms. Tsongas. Thank you all for your testimony, and I 
appreciate your work. I mean, there is much to be done, but we 
want to have the best services possible, so we need to recruit 
fully from all that this country offers.
    Mr. Coffman. Dr. Abraham, you are now recognized.
    Dr. Abraham. Thank you, Mr. Chairman.
    I thank the witnesses for being here.
    General Grosso, I will start with you. We all understand 
that when a pilot gets through with the Air Force training 
specifically, that 10-year commitment, that the civilian side 
is, at that day, dangling a check sometimes three and four 
times more than what they are getting paid for the Air Force. 
And, fortunate or unfortunate, we understand that is the 
reality.
    And I understand all the services are in shortage of 
aviators. It is my understanding that the Air Force is probably 
more in a shortage area, because they employ more aviators, 
just logistically.
    So the question is, specifically, what is the Air Force 
doing to retain that aviator, where he or she has invested and 
the Air Force has invested so much time and treasure and then, 
all of a sudden, poof, the next day they are flying for a Delta 
or a Southwest?
    General Grosso. So we have several lines of effort to 
retain aviators. But what we find is that this is very 
cyclical, and if you look at the data, it is highly correlated 
to airline hiring.
    And so it is incumbent upon us to do all we can to retain 
airmen, and so some of it is how do we give them the better 
quality of work. It is very clear that there are duties we need 
to take off their plate, and we are working that. We have 
funded that in the budget. So administrative duties that take 
away from their ability to fly.
    We have to fund weapons systems sustainment and maintainers 
so that those planes are ready for them to fly, to fly more.
    And we need to give them more flexibility in our systems. 
We are working hard, from an assignments perspective, to get 
more input from the airmen, from our aviators, and so maybe 
have less disruption from assignments.
    We are also looking at ways to incentivize long deployments 
away from their family so that we lose less people because it 
doesn't meet their family needs.
    But we have also understood that we can't retain our way 
out of this challenge, so you have to produce more. And we have 
to take a hard look at the requirements as well.
    Dr. Abraham. So, in that line, you mentioned your college 
intern program----
    General Grosso. Yes, sir.
    Dr. Abraham [continuing]. As a pipeline for maybe more 
aviators coming in. I guess my question is, are you getting 
much resistance across the college spectrum of that type of 
intern program being on those campuses?
    General Grosso. Sir, just to be clear, that intern program 
is for civilians, so not our military aviators. But we----
    Dr. Abraham. I understand that, but you are on college 
campuses touting this--am I correct there?--trying to bring 
those students into the armed services.
    General Grosso. Yes, sir. No, we have actually had great 
success. What you find on the civilian side is it takes us so 
long to hire that we don't keep them. And so the authorities 
Congress gave us to directly hire them and offer them jobs in 
their junior year is really the way we are competing for 
talent--in particular, STEM [science, technology, engineering, 
and mathematics] talent.
    Dr. Abraham. Because I know you have to pick them up early 
in their curriculum, either the sophomore, no later than the 
junior, because, if not, a civilian contractor or business is 
going to be already tugging and putting a check in front of 
them.
    General Grosso. Exactly. Exactly. And that is why the 
authorities you gave us are critical, and then us being able to 
execute those authorities.
    Dr. Abraham. Okay.
    And, Admiral Burke, I know on the Navy side but in all the 
services, you know, cyber shortages is an issue. And I think 
cyber and certainly space is our next domain of fighting.
    Specifically for the Navy, on cyber, what are you guys 
doing to hold on to those people? I mean, that is somewhat of a 
different culture, as far as the cyber mindset, in my world. 
That takes a little kind of an outside-the-box thinking, so 
that is some type of a different personality. Any comments on 
that?
    Admiral Burke. Yes, sir. Our big challenges are on the 
senior enlisted technical leaders. So they will grow to sort of 
the E-5, E-6 level, and then they will be poached off by 
commercial, you know, entities right when they are maturing to 
the point where they are going to be eligible for maybe one of 
our warrant officer programs at the E-6 or E-7 level, where 
they would be a technical manager for us.
    So one of the things we just employed was, instead of a 
commissioned warrant officer, we went with a W-1 program that 
made E-5s eligible for this. That was within our existing 
service authorities, to use that option. That made junior E-5s 
eligible and then made them, you know, available for that 
program for many, many more years.
    So that opened the pool to many more sailors. We have to be 
a little more careful about screening those sailors, looking 
harder for the potential, but we know how to do that pretty 
well. And then we get them in, into the leadership position, 
and then they can blossom from there.
    So we have just implemented that. That is getting off the 
ground. Too early to tell if that will succeed. But we will at 
least get, you know, 3 to 4 years out of them once they get 
into the warrant officer program, so that will buy some time 
out of it.
    The other area that we are having a little bit of a 
challenge in is, you know, we have, on the officer side, our 
operators, both on the offensive and defensive side, we are 
doing okay on there. It is the engineers, the folks that are 
developing the payload packages, if you will.
    We grow those right now. You gave us some legislative 
authority to bring them in with the equivalent of 3 years of 
experience laterally. That is about, you know, a lieutenant 
junior grade in the Navy or a first lieutenant in the other 
services, but it is about a $50,000 pay. In Silicon Valley, 
these folks would be, you know, up over $100,000. So lateraling 
them in.
    The mission and the service appeals to these folks, but 
there is an equivalent excepted cyber civilian program that 
allows the government to pay in the closer to $100,000 range. 
So they seem to be preferentially going to the government 
service rather than the military service option.
    So that is an area we are having a challenge in. So we are 
still growing them from the ground up rather than bringing them 
in at the level. But retention is where it is right now.
    Dr. Abraham. Thank you.
    Thank you for the extra time, Mr. Chairman.
    Mr. Coffman. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you all for being here and for your service.
    I think you have heard loud and clear that we are not 
interested in seeing lower quality, even though you have a 
great challenge ahead of you. We want to be part of making sure 
you can meet the challenge.
    So, as I am listening to you, I am realizing, I wonder to 
what extent our efforts in terms of recruiting and looking at 
personnel issues are relative to our, you know, fathers' or 
grandfathers' military service.
    I think Vice Admiral Burke mentioned looking at 
disqualifiers. So what I would like each of you to provide to 
the committee is what the disqualifiers are for all those who 
actually do apply or who become recruited. You may not have 
those figures for us now, or those specifics, so if you would 
just provide that to us, that would be appreciated.
    Secondly, in talking to those who actually were purveyors 
of MREs [meals, ready-to-eat] recently that had a presentation 
for us and they were showing us how they were beefing up the 
calcium in some of their products, I was told that there is 
about 10 percent of those who are recruited during basic 
training that wash out. So I would like to know from each of 
you if that is the case. And they wash out because of hairline 
fractures.
    So could you each address that particular issue for me, 
please?
    General Seamands. Thank you very much for the question, 
ma'am.
    Within the Army, about 10 percent wash out during basic 
training for a variety of reasons, including medical issues. 
And we are taking a look at that. Within the Active force, 
across the total force, about 80 percent of our nondeployables 
are medically related, and musculoskeletal is one of the 
biggest portions of that population.
    Ms. Speier. So, if you could provide the specifics on the 
nondeployables, of that 80 percent, and then the 10 percent, 
how many of them fall into that musculoskeletal.
    Yes, Vice Admiral.
    Admiral Burke. Yes, ma'am. We have about 12 percent 
attrition at Recruit Training Command. The overwhelming 
majority of that, 95 percent of that is nondisclosed 
preexisting medical conditions, things that weren't disclosed 
in the recruiting process that would have been medical----
    Ms. Speier. Is that the use of an inhaler?
    Admiral Burke. Well, those are the things we are trying to 
change the policy on, but it is things--and when we come across 
those, we change it right then and there. But it is things that 
are no-kidding, insurmountable medical things that, you know, 
we can't get through.
    So we are actually working through some Privacy Act issues 
with, for example, being able to look at the medical records of 
dependent children of military members and look at public 
military records so you are not completely dependent on what 
the individuals, you know, write and tell you about, the 
ability to actually be able to go look in medical systems and 
see these things ahead of time. And we are making some progress 
working with the Department of Defense on that.
    Ms. Speier. All right.
    Lieutenant General.
    General Grosso. Representative, I have not seen the current 
data, but I believe it is about 6 or 7 percent. But I will get 
you the exact number.
    Having been the commander there several years ago, we 
didn't typically separate somebody if they had a stress 
fracture. We tried to rehabilitate them. Because, depending on 
the severity, it usually could be 2, 3, or 4 weeks out of 
training. So we didn't typically send them home for stress 
fractures.
    But I will get you that exact data.
    [The information referred to was not available at the time 
of printing.]
    Ms. Speier. All right. Thank you.
    General Rocco. In the Marine Corps, our non-EAS [end of 
active service] attrition at boot camp is closer to 20 percent. 
Most of it is, as Admiral Burke had mentioned, nondisclosed 
issues, because a lot of the medical is self-reporting. But I 
can give you the specifics on the breakdown of what exactly 
that number is.
    As we get beyond boot camp, our non-EAS attrition goes down 
to about 3 percent.
    Ms. Speier. Okay.
    One of the things that was recommended is that the calcium 
is beefed up before they come into basic training to avoid some 
of those issues. And I don't know to what extent that is 
attempted through recruiting.
    How about retention after their first term? What is the 
percentage that you are able to retain? Could each of you tell 
us that, please?
    General Seamands. Ma'am, about a third of the people who 
enlist don't make it to their initial reenlistment window for a 
variety of reasons, either separation or medical issues within 
the Army.
    Ms. Speier. Well, how many actually could continue, could 
re-up, but don't, is what I want to know.
    General Seamands. On the retention, we have historically--
over 80 percent of our eligible population to reenlist are 
reenlisting and staying in uniform in the Army.
    Ms. Speier. Okay. Thank you.
    Admiral Burke. We are averaging, Navy-wide, around 60 
percent.
    General Grosso. So our first-term retention is 60 percent. 
But we do, for various reasons, lose about a third. So if you 
looked at who started basic training and who gets to that first 
term, it is about a third that aren't there.
    General Rocco. And for the Marine Corps, we, by design, 
lose about 70 percent of that cohort or those recruits in that 
year. When I say ``lose,'' those are--we need about a third of 
them to stay in the Marine Corps, to re-up for a second 
enlistment. So, by design, by rank structure, most of that, 70 
percent of those recruits in that given year do the first-term 
enlistment and then leave, some voluntary and some we just 
don't have the space for.
    As I mentioned in my remarks, we are at--retaining FTAP 
[First Term Alignment Plan], we are at 92 percent. And we have 
more Marines right now who want to stay in than we have boat 
spaces for.
    Ms. Speier. All right. Thank you very much.
    Mr. Coffman. Dr. Wenstrup, you are now recognized.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    It is good to see you all today.
    Ms. Speier, there is a part of me that would like to be 
sitting over there today, as an Army podiatrist, to talk about 
treatment and prevention of stress fractures and injuries that 
we could do a whole lot more on. And I will be glad to engage 
with you more on that. We might need a whole other hearing on 
that. And I would be glad to do that. And it is more than just 
adding calcium, because it is biomechanical.
    And I will just address to you, General Seamands, if you 
don't mind, for the sake of time, I want to go through the 
recruiting process. When someone wants to join, they go through 
the process; they have checked all the boxes as being eligible. 
The recruiter then--and I am thinking more enlisted at this 
point, young people. What MOS [military occupational specialty] 
do you want? What is it you want to do in the military?
    I was so impressed, when I deployed, that 90 percent of our 
enlisted that were eligible for reenlistment while we were in 
theater took that. I don't know that that is the case across 
the board, but it was pretty impressive, especially when you 
consider where they are making that decision, which was in 
theater.
    And so it occurs to me--and I have asked people, you know, 
when they joined and they met with the recruiter, did the 
recruiter say, yeah, what do you want to do in the Army, but 
what do you want to do after? Whether it is 20-years-plus or 4 
years, are we investing the way we should in their success?
    In other words, what does success look like to us? Yeah, it 
is successful if someone reenlists. You know, we have some 
retention. That is successful, and that is one of the career 
paths we should be talking about. But are we talking about, 
what is your long-term success?
    Because when you talk about marketing, when you talk about 
recruiting, if the military is perceived as the place to go 
because there is going to be something good at the end, whether 
it is in uniform or not, I think we will recruit and retain 
even better.
    So I would like to hear from all of you on that--we will 
start with you--on that notion of, day one, what do you want to 
do after this?
    General Seamands. Thank you, sir. That is actually part of 
the discussion recruiters have. These are the MOSes you qualify 
for. What is your passion? What do you aspire for? And in some 
cases talk about life after the Army.
    We also start that discussion when they arrive at basic 
training in the AIT [Advanced Individual Training], and it 
continues on through the time they are in uniform, thanks to 
the VOW Act that you passed a few years ago. It is a conscious 
decision. And you can see the effect of that from commanders, 
command sergeant majors, and first sergeants engaging.
    If you go back about 5 years, our unemployment compensation 
was almost half a billion dollars we were paying. Last year, it 
was $127 million. So what is happening is our Soldier for Life 
programs, our education, training, and credentialing that we 
work through the programs, tuition assistance, in order to 
return a better citizen back to their community, is evidenced 
in the lower unemployment.
    So that is a discussion we have throughout their--because 
once they come in, we want to make sure they are set up for a 
smooth takeoff as they leave.
    Admiral Burke. Yes, sir. Similar, when our sailors come in, 
we test them for aptitude, of course, as all the services do. 
We also have a test that is called JOIN, Job Opportunities in 
the Navy, that tests their interests. And we have found a high 
correlation between--sort of, the sweet spot between the two is 
about a 75 percent match between the two, and that gives us a 
much higher retention. You know, if you are good at it and you 
like it--and not necessarily the peak of both--you will stay, 
because you are challenged in something, for a lot longer 
period of time.
    In addition to all the many educational opportunities that 
we offer to, you know, improve oneself, to help you later on in 
life, either inside the military or outside the military, the 
certification, Navy certification opportunities online. We have 
over 1,900 credentialing opportunities. There is at least one 
credentialing opportunity for the job skills. Every single 
sailor could get at least one credentialing opportunity. And 
that is to, you know, show that they have been tested to 
industry standards.
    And then the U.S. Military Apprenticeship Program gives 
them the experiential documentation as well.
    So we will provide those things, all to help them be better 
citizens, more productive employment opportunity when they get 
out.
    Dr. Wenstrup. Thank you.
    General Grosso. I think ours is very similar as well. We do 
aptitude testing. And, for the most part, most airmen that come 
in have a skill that they--they know what they want to do, and 
they typically get that skill. It is not that common, unless 
they don't qualify.
    And then Military Tuition Assistance really helps----
    Dr. Wenstrup. Sure.
    General Grosso [continuing]. Set them up for the future. 
And typically what you will find is that they study something 
they want to do when they leave. We have an interestingly large 
number of people that study early education, early childhood 
education. And we believe that must be because that is 
something that they choose to do beyond their service.
    The other thing is we have an accredited associate's 
program in the Air Force, a Community College of the Air Force. 
So very few, if any, enlisted members leave without at least 
their associate's degree.
    General Rocco. So, knowing full well that we are going to 
return 70 percent of those enlistees after their first 
enlistment, we spend a lot of time focusing on exactly that. We 
want to return good citizens back after they serve in the 
Marine Corps.
    So we encourage tuition assistance, we encourage the use of 
the GI Bill while on Active Duty to go ahead and pursue some 
further education. MECEP [Marine Corps Enlisted Commissioning 
Educational Program], ECP, those enlisted commissioning 
programs that we have, we fully endorse.
    And in our transition courses, they are full with job fairs 
and credentialing organizations that will help those Marines 
take the skills that they have learned in the Marine Corps and 
transition them to a civilian job.
    Dr. Wenstrup. You know, I think just all too often the 
general public doesn't realize--you hear about anyone who has a 
difficulty after their service, but we don't hear enough about 
the military being a pathway to a successful civilian life. And 
I think that is really what I would like to see promoted more 
and change the perception that some people have. Because I 
think we all know the great majority of people who serve end up 
in a better place.
    I yield back.
    Mr. Coffman. Mr. Russell, you are now recognized.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you all for being here today.
    One of the things that we are exploring in this year's 
authorization is the ability to train--and this one will be 
kind of an officer-training-related question. You have people, 
maybe, with a 4-year scholarship program or they are at the 
service academies, and then for whatever reason--this is not a 
high population, but it is a high investment--they have some 
injury that will preclude a commissioning.
    And, in talking to the vices and others, it is like--and 
through no fault of their own. You know, they are not punished. 
But then they are released to the American public as a whole, 
yes, maybe better citizens and all of that, but all the 
investment is gone.
    And so one of the things that we are looking at maybe 
exploring is to translate them, if they are precluded from 
taking a commission, to go into the Department of Defense 
workforce and fulfill their service obligation in that 
direction. And I would just be curious of your thoughts on 
that.
    General Grosso. Sir, if I could comment first.
    We are already doing that. We have had several academy 
cadets, to your very example, that had a medical issue pop up 
literally weeks before graduation, and, with your direct hiring 
authorities, we brought them into the civilian workforce----
    Mr. Russell. But that was voluntary, is it not, I mean, 
under the current law?
    General Gross. Yes, sir. It is absolutely voluntary.
    Mr. Russell. Right. Because if they were healthy, they 
would have a service obligation, and they would be required to 
serve still a 5-year commitment, I guess, for service 
academies, 4-year scholarship commissionings. Is that correct?
    General Grosso. Correct.
    Mr. Russell. And that is great, you know, that we are doing 
that. If we made that a requirement--I mean, it is not unjust. 
There has been a great investment there. And I would love to 
have your thoughts on that.
    General Seamands. Sir, I support that. I think it is a 
great opportunity. They have a propensity to serve. In many 
cases, they want to serve. And I think we have given them a 
great education, so I think that is an appropriate payback.
    Admiral Burke. Sir, we would support it as well. Like the 
Air Force, we seek volunteers to come into the government 
service. We do the same thing when there has been an injury. 
For, like, medical scholarships, we actively try to, you know, 
rather than recoup, get them to come in as a civilian doctor, 
for example. And there is always quite a high interest rate in 
taking those options, but we would support making it mandatory.
    General Grosso. We would support it, sir.
    General Rocco. And the Marine Corps would also support it. 
I think it is a wonderful--you talk about the quality of the 
men and women that go to the service academies, and, as you 
say, through no fault of their own, they cannot serve. Exposing 
them to a Department of Defense job that they perhaps wouldn't 
have been exposed to, I think, opens up benefits to both the 
student and also the organization.
    Mr. Russell. Well, look for it heading your way, I guess. 
And, you know, it is something we will continue to work on, Mr. 
Chairman, and it is something that we are looking at for this 
year's NDAA. But I really appreciate your thoughts on it, and 
it is valuable to have your comments on it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Coffman. We will have a second quick round.
    Ranking Member Speier.
    Ms. Speier. Mr. Chairman, thank you.
    Lieutenant General Grosso actually referenced having a high 
retention rate but low retention in terms of linguistic 
analysts, special operations aircraft maintenance, and nuclear 
medicine specialties. I would like to know if you have 
categorized the areas where you have problems in terms of 
retention.
    I think that is part of the key here. If we invest as much 
money as we do to get them through boot camp and have them 
serve for a period of, you know, 18 months afterwards or, you 
know, 2 years afterwards and then have them not continue, I 
mean, that is a loss of, what, $80,000.
    So could you tell me, what are the areas in each of your 
services where you are having issues with retention?
    General Seamands. Ma'am, thank you for the question.
    Within the Army, I think with all the other services, 
aviation is one of them. And we are attacking that with 
increased training throughput as well as bonuses to encourage 
people to continue to serve.
    The other area I would offer is cyber. We don't have a 
problem accessing them because there are a lot of people who 
are interested in being cyber soldiers. We think at some point 
in the future, because they have a 6-year obligation, we will 
have a problem with retention. So our strategy is to treat them 
and recognize what they are doing now in terms of bonuses and 
their credentialing, in order to hopefully have them continue 
to serve and want to continue to serve in the future.
    But I would say aviation and cyber are the two issues.
    Admiral Burke. Yes, ma'am. For us, it is the nuclear 
specialties, nuclear propulsion, that is; and cyber, including 
linguistics, the same as the Air Force; aviation and mechanical 
and structural rates on the enlisted side; pilots, of course, 
retention on the officer side; and then the special warfare 
folks.
    General Grosso. And, ma'am, you mentioned ours, but we 
track every single career field extensively, because, in an up-
or-out system, you only retain what you need. And so, for the 
most part, if you look in the aggregate, we have very strong 
retention. We just have these pockets. But you have given us 
plenty of authority in special and incentive pays, and, really, 
the key for us is to target them where we need them.
    Ms. Speier. All right.
    General Rocco. Yes, ma'am. So cyber is always a challenge. 
Part of the challenge we are having with cyber is that the 
other MOSes, the other specialties that we are drawing upon are 
usually signals intelligence, the schools that the Marines go 
and spend a lot of time at, so they are in high demand.
    The other one, we mentioned aviation maintenance. We have 
included aviation, what we call bonuses, for the enlisted side. 
So those Marines that work on aircraft, those specialties--and 
they have certain specialties inside of those CDIs [collateral 
duty inspectors] and different aviation specialties--we have 
given them extra bonuses, which has stabilized the population.
    Ms. Speier. Lieutenant General, Congresswoman Tsongas made 
the case that targeting women is going to be key moving forward 
in the military. You know, it takes me back 40 years when I was 
a staffer and went to West Point and asked the audacious 
question as to why women couldn't be accepted into the 
academies. And we have actually moved forward a little bit 
since then, but, at the time, it was because they couldn't 
serve in combat. That was the rationale.
    So there really is no rationale anymore, but it appears the 
Marines have really lagged behind all the other services in 
terms of incorporating women, both in terms of training--they 
are still being trained separately from men--and just the 
general sense that women don't belong in the Marines.
    So could you address how you are going to be more embracing 
of women, much like the other services have?
    General Rocco. And that is an important----
    Ms. Speier. In 1 minute.
    General Rocco. Certainly. And that is an important 
question.
    So we recently opened up Marine Combat Training-West, which 
is where we send all non-infantry Marines. So if you are an 
administrative or just a non-infantry, you will go to Marine 
Corps Combat Training to learn how to be a Marine and a Marine 
first. So we have recently opened that up to females.
    And, as far as everything else, we have opened up all 
occupational fields. So, again, it is voluntary to go into some 
of these more ground-centric, load-bearing units, but we 
understand that we are making progress, albeit slow, but we are 
making progress.
    We have stood up the Personnel Studies Office, which is 
headed by Ms. Melissa Cohen, to go out and ensure that 
commanders are trained and units are trained on unconscious 
bias and some of the things that perhaps have prevented some of 
that in the past.
    So we are talking proactive steps to ensure that women are 
accepted in every MOS and in every level of the Marine Corps.
    Ms. Speier. How many generals do you have that are women?
    General Rocco. We have two. I am sorry. General Reynolds, 
General Shea, and we just recently--General Mahlock. So it will 
be three.
    Ms. Speier. Three out of how many?
    General Rocco. Eighty-two Active.
    Ms. Speier. All right.
    Thank you.
    Mr. Coffman. General Bacon, you are now recognized.
    Mr. Bacon. Thank you.
    It is hard to do two committee hearings and a speech, so I 
am glad I caught you on the tail end of this. Thank you for 
being here. And it is good to be with some friends I have 
served with. And I appreciate your expertise and your 
leadership.
    I want to ask you, what is the impact so far that you have 
seen on the blended retirement? Are we seeing any kind of 
negative, adverse retention from that, or recruitment?
    Thank you.
    General Seamands. Thanks for asking.
    We monitor that pretty closely. So far, about 9 percent of 
the Active and about 3 percent of the Guard and Reserve have 
opted in to the blended retirement.
    I think it is going to be a significant indicator on 
retention in the out-years, and I think we are going to have to 
fundamentally change how we address retaining talent. Today, if 
I keep somebody, an officer, an NCO, to 10 years, I have a 
pretty high probability I will keep them to 20. I think that 
dynamic could potentially change, but we won't see that, 
probably, for the next 7 maybe to 10 years, so we need to be 
prepared. And we are thinking about it now, trying to get our 
heads around it.
    Mr. Bacon. And I think you are right. My hunch is people 
are going to get out at the 17-year point because they won't 
have that big cliff they are facing.
    General Seamands. Absolutely. So the blended retirement 
essentially reduces the cost of the impact of getting out, 
potentially. And so I think we need to be creative in how we 
address that and work to retain our talent.
    Mr. Bacon. Anybody else?
    Admiral Burke. Sir, we are not seeing any impacts yet, but 
we continue to watch it closely as well.
    We really appreciate the flexibility you gave us in last 
year's NDAA to move the continuation pay component. It gave us 
some years to move it around. So our plan is to sort of use 
that and complement that with other retention incentives to 
offset.
    Mr. Bacon. Thank you.
    General Grosso. I don't think we have enough data yet. So 
we know the data in the aggregate. We don't know what skill 
sets there are, so I am very curious to see that data. But I 
agree that it does fundamentally change--it is a big change, 
and how we manage that continuation pay is going to be 
critical.
    Mr. Bacon. Okay.
    General Rocco. And I will just pile on. The continuation 
pay is going to be key. Right now, we have 25 percent of the 
Marine Corps has chosen, and, out of that, 70 percent have 
opted in to BRS [Blended Retirement System].
    Mr. Bacon. So what I'm hearing is, some positive 
indicators, but yet it is still too early to really say. And 
yet there is a fear that we are going to have a hard time 
retaining people through 20, is sort of how I have analyzed 
you-all's inputs.
    Something I have mentioned to Colonel Grosso, or General 
Grosso--I am sorry; you were lieutenant colonel, colonel, one-
star, all the way up--General Grosso, excuse me--is the pilot 
bonuses.
    I think we need to have the data at some point. If, say, 55 
percent of our pilots stay in--I am just throwing a number out 
there--we say that is a success for the bonuses. But yet we 
don't know, if there wasn't, if, say, 50 percent of that 55 
would have still signed up. And I think at some point we need 
to have some kind of data that says that these bonuses are 
having this kind of impact.
    And that is something I have mentioned before, but--I know 
we always look at the retention that we have, but we don't know 
how many we would have retained anyway without the bonus.
    So your thoughts?
    General Grosso. Yes, sir, there is clearly economic rent, 
which is what you are discussing, and I think that is very hard 
to know.
    But the one thing that it does is it locks the person in, 
and so it helps us know what we do keep. But I completely agree 
with you, it is an imprecise tool.
    Mr. Bacon. Okay.
    General Grosso. We actually have some other options coming 
your way that we are just finally socializing.
    Mr. Bacon. And I agree the commitment thing is important, 
so I won't, you know, disparage that part. It would just be 
nice to know if we are getting a 5 percent payoff added or 10 
or--I think it would be helpful to be able to substantiate just 
what the impact really is, and I don't think we know.
    And, finally, I just want to--I know the Air Force is--I 
have been hearing a little bit about it, but I don't know if 
anybody else is doing this too--but enlisted aviators. Could 
you give us an update, how we are doing there?
    General Grosso. It is going very well. So it is clear that 
our enlisted airmen are just as talented, and they are doing 
well going through the course. We are just starting to 
implement them in the operational units, so I think that 
piece--we are just starting the cultural piece and how do we 
get that right. But it is clear that they are successful.
    Mr. Bacon. So far, only in remote-piloted aircraft?
    General Grosso. Yes, sir.
    Mr. Bacon. Okay, so nothing else.
    Any of the other services?
    General Seamands. Sir, most of our aviators are warrant 
officers. Many of them came from the enlisted force.
    Mr. Bacon. Okay.
    Well, thank you very much.
    I yield back.
    Mr. Coffman. Mr. Russell.
    Mr. Russell. Nothing.
    Mr. Coffman. Thank you.
    I just want to close with one issue that I want to mention 
to you, and that is, I have seen this for a very long time, 
where, in the MEPS [Military Entrance Processing Station] 
process, somebody is deemed physically qualified, we pay to 
send them to basic training in their respective branch of 
service, where they are given another physical and they are 
deemed unqualified.
    Now, you know, that is a waste of money and time. And I 
don't know if it is just a false feeling of warmth to try and 
get the numbers up initially or what it is, but it ought to be 
the same standard. There shouldn't be a disparity.
    And, you know, I saw it when I was in the military, but I 
also see it today, when a family calls me and says, you know, 
my son just reported--the last example was Navy recruit 
training. And, of course, they are in limbo as they are trying 
to be administratively processed out.
    And so, you know, we need to get this straight. And there 
needs to be one standard, and it needs to be consistent.
    And so I wish to thank the witnesses for their enlightening 
testimony this afternoon.
    There being no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 10:10 a.m., the subcommittee was adjourned.]

    
=======================================================================



                            A P P E N D I X

                             April 13, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 13, 2018

=======================================================================

            
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 13, 2018

=======================================================================

      

                    QUESTIONS SUBMITTED BY MS. ROSEN

    Ms. Rosen. I would like to ask about coverage for military children 
with autism spectrum disorder under TRICARE. Autism spectrum disorder 
(ASD) is often treated with applied behavior analysis (ABA), an 
intensive therapy that helps children with autism acquire the skills 
they need to function in their communities, succeed in school, and, in 
general, fulfill their potential. Many studies have shown that the 
earlier a child receives ABA, the better the outcomes. The Centers for 
Disease Control and Prevention estimates that 1 of every 68 children 
and 1 in 42 boys are diagnosed with autism spectrum disorder. There are 
ongoing shortages and wait times for ABA services that have resulted in 
military children with ASD waiting for treatment. Additionally, the 
transition to two TRICARE contractors has resulted in ABA providers 
waiting for credentialing and reimbursements. In light of these 
circumstances, are there ongoing efforts to address wait times and 
delays caused by credentialing and reimbursement backlogs? Are there 
any plans or discussions to cut ABA reimbursement rates?
    General Seamands. We share your concerns about access and 
reimbursement rates for applied behavior analysis (ABA). Soldier 
readiness is directly tied to family readiness. The Army supports 
Soldiers and their family members with special needs through our 
Exceptional Family Member Program. Our program helps to ensure that 
family members will have access and availability to necessary care when 
they transition to a new duty station. To the extent there may be 
issues with reimbursement rates or backlogs for ABA, the Defense Health 
Agency, which oversees the Military Health System, is best suited for 
specifically addressing the concerns.
    Ms. Rosen. I would like to ask about coverage for military children 
with autism spectrum disorder under TRICARE. Autism spectrum disorder 
(ASD) is often treated with applied behavior analysis (ABA), an 
intensive therapy that helps children with autism acquire the skills 
they need to function in their communities, succeed in school, and, in 
general, fulfill their potential. Many studies have shown that the 
earlier a child receives ABA, the better the outcomes. The Centers for 
Disease Control and Prevention estimates that 1 of every 68 children 
and 1 in 42 boys are diagnosed with autism spectrum disorder. There are 
ongoing shortages and wait times for ABA services that have resulted in 
military children with ASD waiting for treatment. Additionally, the 
transition to two TRICARE contractors has resulted in ABA providers 
waiting for credentialing and reimbursements. In light of these 
circumstances, are there ongoing efforts to address wait times and 
delays caused by credentialing and reimbursement backlogs? Are there 
any plans or discussions to cut ABA reimbursement rates?
    Admiral Burke. Instilling confidence in timely access to quality 
health care is essential to force readiness and ensuring the welfare of 
Sailors and the dedicated Navy families who support them. This is 
particularly vital for families with special needs, including Autism 
Spectrum Disorder, which require access to specialized therapies and 
techniques, such as applied behavior analysis. TRICARE and oversight of 
managed care support contractors fall under the auspices of the 
Director, Defense Health Agency (DHA). Accordingly, I must defer to DHA 
to respond to questions regarding TRICARE contracts, credentialing, as 
well as reimbursement backlogs and rates across the DOD-wide TRICARE 
network. Thank you for your interest in, and commitment to, ensuring 
the quality of health care for our Sailors and their families.
    Ms. Rosen. I would like to ask about coverage for military children 
with autism spectrum disorder under TRICARE. Autism spectrum disorder 
(ASD) is often treated with applied behavior analysis (ABA), an 
intensive therapy that helps children with autism acquire the skills 
they need to function in their communities, succeed in school, and, in 
general, fulfill their potential. Many studies have shown that the 
earlier a child receives ABA, the better the outcomes. The Centers for 
Disease Control and Prevention estimates that 1 of every 68 children 
and 1 in 42 boys are diagnosed with autism spectrum disorder. There are 
ongoing shortages and wait times for ABA services that have resulted in 
military children with ASD waiting for treatment. Additionally, the 
transition to two TRICARE contractors has resulted in ABA providers 
waiting for credentialing and reimbursements. In light of these 
circumstances, are there ongoing efforts to address wait times and 
delays caused by credentialing and reimbursement backlogs? Are there 
any plans or discussions to cut ABA reimbursement rates?
    General Grosso. Air Force cannot respond to this Question for the 
Record. The TRICARE Program is owned by DHA THP; therefore, we defer to 
DHA THP for a response.
    Ms. Rosen. I would like to ask about coverage for military children 
with autism spectrum disorder under TRICARE. Autism spectrum disorder 
(ASD) is often treated with applied behavior analysis (ABA), an 
intensive therapy that helps children with autism acquire the skills 
they need to function in their communities, succeed in school, and, in 
general, fulfill their potential. Many studies have shown that the 
earlier a child receives ABA, the better the outcomes. The Centers for 
Disease Control and Prevention estimates that 1 of every 68 children 
and 1 in 42 boys are diagnosed with autism spectrum disorder. There are 
ongoing shortages and wait times for ABA services that have resulted in 
military children with ASD waiting for treatment. Additionally, the 
transition to two TRICARE contractors has resulted in ABA providers 
waiting for credentialing and reimbursements. In light of these 
circumstances, are there ongoing efforts to address wait times and 
delays caused by credentialing and reimbursement backlogs? Are there 
any plans or discussions to cut ABA reimbursement rates?
    General Rocco. The Marine Corps supports Marines and their family 
members with special needs through our Exceptional Family Member 
Program. Our program helps to ensure that family members will have 
access and availability to necessary care when they transition to a new 
duty station. The Defense Health Agency (DHA) oversees the Military 
Health System. DHA identifies credentialing requirements and 
establishes reimbursement rates for medical care delivered by 
authorized providers in the TRICARE network. DHA has the responsibility 
to address waitlists for care and expand the network of authorized 
providers.

                                  [all]
</pre></body></html>
